i

No

In The
Supreme Court of the United States

Martha Aguirre,
Petitioner
vs.
The United States of America,
Respondent

ON PETITION FOR A WRIT OF CERTIORTARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner has
previously been granted leave to proceed in forma pauperis in the United States
District Court for the western District of New York and in the United States court
of Appeals for the Second Circuit. The Petitioner is currently incarcerated at FCI
Phoenix in Phoenix, Arizona.

^U^v.C-Ol
M. Kirk Okay

/ J

CJA Counsel ofRecortHoPetitioner

received
AUG 11 2021

gB85ff<35MII

1

The Okay Law Firm
546 East Main Street
Post Office Box 622
Batavia, New York 14021-0622
TEL: (585) 343-1515
Email: mokay570@gmail.com

